No. 19-123
In the

Supreme Court of the United States
__________________

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.
__________________
On Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

__________________

BRIEF OF AMICI CURIAE 27 LAY ROMAN
CATHOLICS IN SUPPORT OF RESPONDENTS

__________________

James K. Riley
Counsel of Record
145 Franklin Avenue
Pearl River, NY 10965
(845) 653-1722
jrjrprny@gmail.com
Counsel for Amici Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
STATEMENT OF THE INTEREST OF AMICI . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

By Ruling for Petitioners on a Disputed
Church Matter, this Court Would Be
Establishing Religion in Disregard of the
First Amendment Establishment Clause. . . . 4
A. There is active religious controversy in
the Church and millions of Catholics do
not support the rejecting, exclusive
approaches of CSS . . . . . . . . . . . . . . . . . . . 4
B. The message of Pope Francis as the
ultimate hierarchical leader of the Roman
Catholic Church is one of inclusion, not
exclusion, of LGBTQ people. . . . . . . . . . . . 5
C. A ruling for CSS, while a recognized
internal Church debate about treatment
of LGBTQ people continues, would violate
the Establishment Clause . . . . . . . . . . . . . 7
D. The amici, as laity, have both the duty
and the right under Church teachings to
now make these religious differences
known to this Court . . . . . . . . . . . . . . . . . . 8

ii
E. The duty of laity to speak out includes the
responsibility to defend and protect the
rights of LGBTQ people both in civil
society and in the Church . . . . . . . . . . . . 10
II.

There Is Extensive Theological Support
Within the Church for the Welcoming
Treatment, Not the Rejecting Treatment, of
LGBTQ People . . . . . . . . . . . . . . . . . . . . . . . . 13
A. To reject LGBTQ people including refusal
to recognize their civil marriages is
unjustifiable discrimination under
Church Teachings . . . . . . . . . . . . . . . . . . 13
B. Catholic Social Teaching is irrefutable
that discrimination on the basis of
sexuality or gender is always unjust and
immoral . . . . . . . . . . . . . . . . . . . . . . . . . . 14
C. The Pope’s message that LGBTQ people
are to be welcomed with dignity and
respect is being disseminated by, among
many others, Fr. James Martin, S.J. . . . 17
D. The debate about treatment of LGBTQ
people as illustrated by differences
expressed by Archbishop Charles Chaput,
O.F.M. Cap. and Fr. James Martin, S.J.. 19
E. A majority of Catholics in the United
States support equality for LGBTQ
persons . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iii
F. There are two recognized approaches
within the Church about LGBTQ people
and this Court should not choose between
the two . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
III.

Argument on the Law . . . . . . . . . . . . . . . . . . 25
A. In Wisconsin v. Yoder, Chief Justice
Burger warned of Establishment
Concerns in Religious Liberty Claims as
now present in the instant case. . . . . . . . 25
B. Employment Division v. Smith as relied
upon by the Third Circuit is an essential
standard for review of claims based on
religion . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
APPENDIX
Appendix A - List of Amici Curiae. . . . . . . . . . . App. 1
Appendix B - Church of the Presentation, Slide/
Question No. 8, Survey of the Task Force on
Healing and Reform (2018) . . . . . . . . . . . . . App. 2

iv
TABLE OF AUTHORITIES
CASES
Bostock v. Clayton County,
590 U.S.___.(2020) . . . . . . . . . . . . . . . . . . . . . . . 16
EEOC v. Townley Eng’r and Mfg. Co.,
859 F.2d 610 (9th Cir. 1988). . . . . . . . . . . . . . . . . 9
Employment Division, Department of Human
Res. v. Smith, 494 U.S. 872 (1990) . . . . . . . passim
Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church of North America,
344 U.S. 94 (1952). . . . . . . . . . . . . . . . . . . . . . . . 30
Madonna v. U.S. Department of Health and
Human Services, No. 6:19-cv-03551-TMC
(D. S.C. filed Dec. 20, 2019) . . . . . . . . . . . . . . . . 32
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission,
138 S. Ct. 1719 (2018). . . . . . . . . . . 2, 3, 27, 28, 29
Presbyterian Church v. Mary Elizabeth Mem’l Hull
Presbyterian Church, 393 U.S. 440 (1969) . . . . . . . 30
Serbian Eastern Orthodox Diocese for United
States and Canada v. Milivojevich,
426 U.S. 696 (1976). . . . . . . . . . . . . . . . . . . . . . . 30
School District of Abington v. Schempp,
374 U.S. 203 (1963). . . . . . . . . . . . . . . . . . . . . . . 30
Walz v. Tax Commission of the City of New York,
397 U.S. 664 (1970). . . . . . . . . . . . . . . . . . . . . . . 26

v
Watson v. Jones,
80 U.S. (13 Wall.) 679 (1871) . . . . . . . . . . . . 29, 30
Wisconsin v. Yoder,
406 U.S. 205 (1972). . . . . . . . . . . . . . 25, 26, 27, 28
CONSTITUTION
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
Fr. James Allison, The Fulcrum of Discovery or How
the ‘Gay Thing’ Is Good News for the Catholic
Church (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
American Heritage Dictionary of the English
Language, Fifth Edition, 2016 . . . . . . . . . . . . . . . 6
Jacques Balthazart, The Biology of Homosexuality,
(2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Catechism of the Catholic Church (1997) . . 12, 13, 18
Archbishop Charles J. Chaput, Father James
Martin and Catholic belief, CatholicPhilly
(September 19, 2019) . . . . . . . . . . . . . . . . . . . . . 20
Church of the Presentation, Survey of the Task
Force on Healing and Reform (2018) . . . . . . . . . 22
Church of the Presentation, Slide/Question No. 8,
Survey of the Task Force on Healing and Reform
(2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Dignitatis humanae (Declaration on Religious
Freedom) (1965) . . . . . . . . . . . . . . . . . . . . . . . . . 14

vi
Dogmatic Constitution of the Church, Lumen
Gentium (1964) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Justin Driver, The School House Gate—Public
Education, The Supreme Court, and the Battle
for the American Mind (2018) . . . . . . . . . . . . . . 27
Encyclical Letter, Rerum Novarum (On Capital and
Labor) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Lisa Fullam, Civil Same-Sex Marriage: A Catholic
Affirmation; New Ways Ministry, (2019). . . 13, 14
Paul Halsall, Modern History Sourcebook: John
Henry Newman (1801-1890): On Consulting the
Faithful in Matters of Doctrine July 1859,
Internet History Sourcebook Project, Fordham
University (1998) . . . . . . . . . . . . . . . . . . . . . . . . . 8
Simon LeVay (Gay, Straight and the Reasons,
2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
James Martin, S.J., Building A Bridge: How the
Catholic Church and the LGBT Community Can
Enter into a Relationship of Respect,
Compassion and Sensitivity (2017) . . . . . . . 17, 18
James Martin, S.J., How Parishes Can Welcome
L.G.B.T.Q. Catholics, America Magazine
(August 23, 2018) . . . . . . . . . . . . . . . . . . . . . 20, 21
James Martin, S,J. How Parishes Can Welcome
L.G.B.T.Q. Catholics, YouTube,
August 23, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . 21
Bryan Massingale, LGBTQ ministry is for the good
of all, U.S. Catholic (August 6, 2020). . . . . . 10, 11

vii
Bryan Massingale, Racial Justice and the Catholic
Church (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Justin McCarthy, Gallup First Polled on Gay Issues
in ‘77. What Has Changed? Gallup, (June 6,
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Justin McCarthy, U.S. Support for Same-Sex
Marriage Matches Record High, Gallup (June 1,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
John T. Noonan, Jr., A Church That Can and
Cannot Change, (2005) . . . . . . . . . . . . . . . . . . 9, 10
Gerard O’Connell, Cardinal Angelo Scola calls out
Pope Francis critics: ‘The Pope is the Pope’,
America Magazine (July 21, 2020). . . . . . . . . . . 19
Pew Research Center on Religion, Report, (June 1,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
“Press Conference of Pope Francis During the
Return Flight”, Liberia Editrice Vaticana, (July
28, 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9
Thomas Reese, Pope meets with Jesuit priest James
Martin to discuss LGBTQ ministry. National
Catholic Reporter (October 1, 2019). . . . . . . . . . 18
Todd A. Salzman and Michael G. Lawler, Can U.S.
Bishops’ support of discrimination against
L.G.B.T be sustained?
National Catholic
Reporter (June 25, 2020) . . . . . . . . . 14, 15, 16, 17

viii
Olga Segura, Meet Father Bryan Massingale: A
Black, Gay, Catholic Priest Fighting for an
Inclusive Church, The Revealer—A Magazine of
Religion and Media (June 3, 2020). . . . . . . . . . . 10
Robert Shine, Fr. Bryan Massingale to LGBT
Catholics: “Refuse to Be Silenced. Continue to
Speak Our Truth. -New Ways Ministry (May 24,
2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Anthony [Antonio] J. Spadaro, S.J., A Big Heart
Open to God: An interview with Pope Francis,
America Magazine, September 30, 2013 . . . . . . . 6
Anthony [Antonio] J. Spadaro, S.J.], An interview
with Pope Francis, Libreria Editrice Vaticana,
(August 19, 2013) . . . . . . . . . . . . . . . . . . . . . . . . . 6
Mark Twain, Mississippi Writings, Adventures of
Huckleberry, Library of America (1982) . . . . . . 24
Michael Sean Winters, The Sensus Fidei, National
Catholic Reporter (June 30, 2014) . . . . . . . . . . . 12
Webster’s New International Dictionary of the
English Language, Second Edition, Unabridged,
1934 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
INTERESTS OF THE AMICI CURIAE
The amici, 27 lay men and women, are each
faithful, committed, practicing members of the Roman
Catholic Church (“Church”) who support the actions of
the City of Philadelphia (“City”). The City acted
properly when it discontinued its contract with
Catholic Social Services (“CSS”) because CSS refuses
applicants who are part of the LGBTQ community. The
amici dispute the claims that “religious beliefs” of the
Church prevent CSS from complying with City’s rules,
inter alia, because there is no singular Catholic belief
on the issue of LGBTQ people fostering and adopting
children. The position of Petitioners does not
adequately reflect current teachings of the Church that
derive from open widespread religious debate about
how LGBTQ individuals are to be treated.1
The amici challenge Petitioners on three specific
grounds. First, it is unjust and unlawful under our civil
laws to permit Petitioners to discriminate against
LGBTQ individuals including those who wish to
participate in a governmental foster care or adoption
program. Second, Petitioners are not entitled to a
“religious exemption” based upon claimed teachings of
the Church involving rejection of LGBTQ individuals
which contradict the message of the Pope and are now
in controversy and under challenge. Third, the
1

Consistent with this Court’s Rule 37.6, Amicus Curiae states that
this brief was not authored in whole or in part by counsel for any
party, and no person or entity other than Amicus and their counsel
made a monetary contribution to the preparation or submission of
this brief. In accordance with this Court’s Rule 37.2, all parties
were timely notified of the intention of amici to file this brief. All
parties consented to the filing of this brief.

2
differences within the Church as to the welcoming or
rejection of LGBTQ individuals have polarized to such
an extent that if this Court were to rule for Petitioners
and the rejection of LGBTQ persons, that decision
would constitute an Establishment of religion. The
Third Circuit held correctly for respondent and this
Court should affirm.2
SUMMARY OF THE ARGUMENT
There are, in effect, unrepresented “real parties in
interest” who have not been heard from in this
case—His Holiness Pope Francis and the millions of
Catholics in the Church who have accepted and live by
his Christian message to welcome, not reject, LGBTQ
people. These faithful voices are found nowhere in this
case. Pope Francis is the hierarchical leader of the
Roman Catholic Church and his message of inclusion
has been conspicuously disregarded by the Petitioners.
This Court should affirm the opinion of the Third
Circuit; this Court must not rule for Petitioners on
what is a deficient record as to the actual message of
the Pope and the Church. Rejection of LGBTQ people,
including same-sex couples, by CSS should not be
sanctioned by this Court on purported “religious
grounds” when those specific grounds are now being
widely challenged within the Church. This is especially
so in the absence of a fully briefed “neutral decision
maker,” recognized as essential by Masterpiece
Cakeshop, Ltd. v. Colorado Civil Rights Commission,
2

This brief was prepared and is submitted pro bono publico. No
legal fees were charged, nor will any be charged, for its preparation
and submission.

3
138 S. Ct. 1719 (2018) to “give full and fair
consideration” to the religious assertions of Petitioners.
And, also, any neutral decision maker should hear from
those for whom the amici now speak; or, preferably as
a matter of First Amendment application, decline to
entertain this matter and thereby avoid the
consideration of religious disputes on the authority of
Employment Division v. Smith, 494 U.S. 872 (1990).
The “rejecting approach” asserted by Petitioners as
their sincerely held Roman Catholic religious belief is
only one side of real doctrinal debate among millions in
the global Church. Evolutionary, even revolutionary
change is now occurring within the Church. The
“belief” that “LGBTQ people should be rejected “, which
Petitioners are using to support their claim for a
religious liberty exemption from generally applicable,
neutral, anti-discrimination laws, is under intensive
ecclesiastical and theological challenge within the
entire Church.
This Court should not decide which variant of this
religious debate to support; by ruling for Petitioners,
what in effect would be an imprimatur would be
weaponized in these ongoing Church controversies to
the benefit of those who would reject and to the
detriment of those who would welcome. A Supreme
Court decision should never be rendered in an on-going
Church controversy of this nature. Under the
Establishment Clause of the First Amendment, no
court should decide such theologically doctrinal matters
which it would be doing by accepting Petitioner’s
religious liberty claims.

4
ARGUMENT
I.

By Ruling for Petitioners on a Disputed
Church Matter, this Court Would Be
Establishing Religion in Disregard of the
First Amendment Establishment Clause.
A. There is active religious controversy in
the Church and millions of Catholics do
not support the rejecting, exclusive
approaches of CSS.

The amici, 27 lay Roman Catholic men and women,
maintain that the City3 acted properly in discontinuing
its contract with Catholic Social Services because CSS
refuses to serve LGBTQ applicants. The amici
emphasize that LGBTQ people have the legal right to
parent children by foster care and adoption. The amici
dispute the Petitioners’ claims that CSS cannot even
consider placement of children with LGBTQ couples.
Such a position is not based on any authoritative or
settled doctrine of the Church.
The strenuous debate within the Church about the
manner in which gay people are to be treated is a
religious exercise about which the courts below and
this Court have not been adequately informed by the
Petitioners (even when one recognizes that Petitioners
3

The amici reside in the states of New York, New Jersey,
Pennsylvania, Virginia, and Florida. The amici include both
presently employed and retired attorneys, public school and nonpublic schoolteachers and administrators, health care personnel
including nurse practitioners, nurses, and hospital administrators,
psychologists, therapists and mental health personnel, university
professors, and business executives in the pharmaceutical and
other industries.

5
are seeking preliminary relief). A court must be
informed, and this Court has not been, if a decision it
may render would place an improper stamp of
governmental approval on a Church teaching that is in
active religious controversy. Clearly, no Court should
become involved, especially without sufficient
background information, about an internal dispute. As
a corollary, courts should not be faced with “first to file”
situations, such as this case now before it, where the
religious approaches of the first party to file suit are
summarily accepted (in effect presumptively to use the
words of Justice Scalia) as correct in complex religious
matters.
B. The message of Pope Francis as the
ultimate hierarchical leader of the
Roman Catholic Church is one of
inclusion, not exclusion, of LGBTQ
people.
Pope Francis has repeatedly and publicly
emphasized the importance of pastoral care and a
welcoming approach for LGBTQ people. His Holiness
has expressed his concern about the suffering and
rejection that many gay individuals have endured. In
an interview with the Jesuit journal, La Civilta
Cattolica, Pope Francis described how “…in Buenos
Aires, I used to receive letters from homosexual
persons who are ‘socially wounded’ because they tell me
that they feel like the church has always condemned
them…A person once asked me in a provocative
manner, if I approved of homosexuality?” Pope Francis
responded “…when God looks at a gay person, does he
endorse the existence of this person with love, or reject

6
and condemn this person? We must always consider
the person…In life God accompanies persons and we
must accompany them, starting from their situation. It
is necessary to accompany them with mercy. Fr.
Antonio Spadaro, An interview with Pope Francis,
Libreria Editrice Vaticana, August 19, 2013
[https://perma.cc/XZ-PJRF]; see also Fr. Antonio
Spadaro [Anthony J. Spadaro, S.J.] A Big Heart Open
to God: An interview with Pope Francis | America
Magazine, September 30, 2013.4, 5
During a press conference on the plane returning
from World Youth Day Pope Francis again answered a
question about a gay individual: “If someone is gay and
is searching for the Lord and has good will, who am I to
judge him? [emphasis added]. The Catechism of the
Catholic Church explains this in a beautiful way,
saying …wait a moment, how does it say it…it says: no
one should marginalize these people for this, they must
be integrated into society”. [last full paragraph of
interview] “Press Conference of Pope Francis During
the Return Flight”, Liberia Editrice Vaticana, (July 28,
2013) [https://perma.cc/N6QP-YLG4].
The Petitioners would have this Court either
disregard, or remain uninformed about, the Pope’s
poignant teachings. Amici stress that Pope Francis
4

https://www.americamagazine.org/faith/2013/09/30/big-heartopen-god-interview-pope-francis [perma.ccZ4P-RQY4].

5

“Accompany” is a commanding word; it carries the meaning of
traversing with an “equal”. See Webster’s New International
Dictionary of the English Language, Second Edition, Unabridged,
1934; American Heritage Dictionary of the English Language,
Fifth Edition, 2016.

7
and numerous Church leaders, including ethicists and
theologians, encourage the “necessary welcoming” of
LGBTQ people. Is “welcoming” what Petitioner CSS is
doing?
Civil discrimination, including the open
rejection of LGBTQ individuals and couples by CSS, is
not just unchristian, it contravenes Church teaching.
C. A ruling for CSS, while a recognized
internal Church debate about treatment
of LGBTQ people continues, would
violate the Establishment Clause.
This Court should never support one side over
another other when actual this theological debate is
occurring. The Court would be doing so if it ruled for
Petitioners; their religious liberty claim should be
rejected to prevent an Establishment breach. To
entertain the arguments of Petitioners, this Court must
enter into disputed, undefined theological territory.
Petitioners seek this Court’s approval of traditional
views which are not the only recognized approach to
these matters among the many believers within the
Church. No court under our First Amendment should
decide between competing theological positions within
the same religion. This amicus brief presents details
about these religious controversies which are now
ongoing within the Church; they are directly relevant,
but in the belief of great numbers of Church members
clearly contradictory to the relief which Petitioners are
seeking.

8
D. The amici, as laity, have both the duty
and the right under Church teachings to
now make these religious differences
known to this Court.
Roman Catholic laity are expected to speak out on
matters of concern especially where the need for justice
is compelling. Paul Halsall, Modern History
Sourcebook: John Henry Newman (1801-1890): On
Consulting the Faithful in Matters of Doctrine July
1859, Internet History Sourcebook Project, Fordham
University (1998) [https://perma.cc/JH44-8Q7C]. The
Second Vatican Council promulgated that, “By reason
of the knowledge, competence, or pre-eminence which
they have, the laity are empowered—indeed sometimes
obliged – to manifest their opinion on those things
which pertain to the good of the Church.” Lumen
Gentium (Dogmatic Constitution of the Church)
paragraph 37 [https://perma.cc/4P6Y-3EGM].
The laity have always played a role in the
development of moral teachings of the Church: some
essential tenets in the Church teaching have developed
over time as a result of lay people identifying
imperatives that arise from emerging situations or
scientific developments. These voices of lay people have
been heard with corresponding results throughout
history. As examples: first, lay people successfully
urged Pope Pius VIII to allow Roman Catholics to receive
interest on monies loaned, thus signaling the
commencement of banking and credit transactions which
have supported economic growth and expansion on a
momentous scale within society. Second, much greater
attention to addressing social problems, signified by Pope

9
Leo XIII’s 1896 Encyclical Letter, Rerum Novarum (On
Capital and Labor), resulted from pressure of lay
activists. [https://perma.cc/EFE3-YQXF ].
Pope Francis has noted, “…the work of a bishop is
wonderful: it is to help one’s brother’s brothers and
sisters to move forward The bishop ahead of the
faithful to mark out the path; the bishop in the midst of
the faithful, to foster communion; and the bishop
behind the faithful because the faithful can often sniff
out the path.” [emphasis added] Press Conference of
Pope Francis, July 28, 2013, supra.6
On these points, John T. Noonan, Jr.,7 who was both
a respected Catholic theologian and a judge on the
Ninth Circuit Court of Appeals for over three decades
noted, “The inventor of the idea that Christian
doctrine develops is John Henry Newman…[He]pointed
to transformation of doctrine as tangible and organic,
as many-sided and complex and real, as the passage
from childhood to adulthood.” John T. Noonan, Jr., A
Church That Can and Cannot Change, p. 3. (2005)
Noonan continues, “One implication that can be
drawn…is that moral theologians are often catching up
with what is already established…” He emphasizes
that theologians, or at least many of them, “do not lead
6
7

[https://perma.cc/N6QP-YLG4].

John Thomas Noonan, Jr. was on the bench of the Ninth Circuit
Court of Appeals from 1985 until his death in 2017. He was also a
recognized Roman Catholic theologian who advised Pope Paul VI
and served as a consultant to the Vatican. While on the bench, he
decided that a for profit closely held corporation could assert a
religious liberty claim. EEOC v. Townley Eng’r and Mfg. Co., 859
F. 2d 610 ((9th Cir. 1988)

10
the way.” John T. Noonan, Jr., A Church That Can and
Cannot Change, p. 211. (2005) The amici, however, in
this brief describe the teaching of certain theologians in
the Church who are leading the way to use Judge
Noonan’s phrase and the amici and many other laity
are closely following them. Id. p. 211
E. The duty of the laity to speak out
includes the responsibility to defend
and protect the rights of LGBTQ people
both in civil society and in the Church.
Fr. Bryan Massingale is Professor of Theological
and Social Ethics and the Senior Fellow in Fordham
University’s Center for Ethics and Education. He has
served as President of the Catholic Theological Society
of America. One primary area of his scholarship,
addressed in his book Racial Justice and the Catholic
Church (2010), is the history of racism within the
Church. His second primary area of scholarship is the
history and teaching of the Church on LGBTQ matters.
Olga Segura, Meet Father Bryan Massingale: A Black,
Gay, Catholic Priest Fighting for an Inclusive Church,
The Revealer—A Magazine of Religion and Media
(June 3, 2020)[https://perma.cc/C43T-9UXF].
On the issues of LBGTQ people raising children, Fr.
Massingale declares, “Respect LGBTQ families as
communities of love who struggle to love as any other
family does. Many among us are raising children who
provide both delight and challenge. These families are
also “holy families”—imperfectly yet truly holy—like
every other family in a parish…” Bryan Massingale,
LGBTQ ministry is for the good of all, U.S. Catholic
(August 6, 2020) [https://perma.cc/KV3G-6MPW]. He

11
continues, “The church is discerning whether or how to
ritually recognize same-sex unions; the Germanspeaking churches are at the forefront of this
discussion. But nothing should exclude our children
from being baptized in the faith. Nor is there any
excuse to compound our grief with gratuitous insult
when burying our deceased loved ones.” Id.
Fr. Massingale has determined that “genuine
doctrinal development” concerning the religious
treatment of LBGTQ individuals is presently occurring
within the Church.
Robert Shine, Fr. Bryan
Massingale to LGBT Catholics: ‘”Refuse to Be Silenced.
Continue to Speak Our Truth.”, New Ways Ministry
(May 24, 2017) [https://perma.cc/CH9J-9FMB]. He
endorses the right of LGBTQ individuals, under
present Church teaching, to participate fully both
within civil society and within the Church. He
identifies the need for the Church, under Catholic
Social Teaching, to extend its existing support for
human rights to include the LGBTQ community.
Massingale emphasizes that for the Church, “To insist
on private acceptance and compassion for LGBT
persons…without a commitment to defending LGBT
human rights and creating a society of equal justice for
all, is not only contradictory; it is inherently
incomprehensible and ultimately unsustainable.” Id.
On these matters, Fr. Massingale calls upon all
Catholics to “...Refuse to be silenced. Continue to speak
our truth even when we know it’s not going to be
welcome.” Id.
The submission of this brief, amicus curiae, is
consistent with that history and that duty; it is the

12
exercise, by the individual amici, of their “informed
conscience” and their participation in the Church as
part of the “sensus fidei fidelis”. See Michael Sean
Winters, The Sensus
Fidei, National Catholic
Reporter, (June 30, 2014) [https://perma.cc/BHC5682H]. Recognizing “informed conscience,” ‘sensus fidei
fidelis” and Catholic Social Teaching, the amici now
accept Fr. Bryan Massingale’s challenge for the Church
to extend its support for human rights “to more fully
include the LGBTQ community.” Id.
On the basis of the foregoing, amici seek to inform
this Court that it should not rule for CSS because its
claimed “religiously supported” rejection of LGBTQ
people does not represent the hierarchical teachings of
Pope Francis who must be recognized as the highest
authority within the Roman Catholic Church.
Catechism of the Catholic Church (1997) paragraphs
882, 937 [https://perma.cc/W8R5-KV3S].
There is no claim here that the Church’s traditional
teaching about sacramental marriage as “between a
man and a woman” has changed. The amici do claim
that there is considerably more to Church teaching
about LGBTQ people than only that phrase. The tenet
about sacramental marriage—”between a man and a
woman”— does not diminish the additional profound
duty under Church teaching to respect and welcome
LGBTQ people. To reject gay people is a primary
instance of prohibited “unjust discrimination”; such
rejection violates Church teachings including both
Catholic Social Teaching and the unquestioned
mandate under the Catechism to welcome LGBTQ with
“respect, compassion, and sensitivity.” No one,

13
including the amici, claims that the Church must
marry a same-sex couple sacramentally; however, the
right of an LGBTQ couple to adopt a child should never
be denied under a religiously unsupportable approach
that unjustly discriminates against LGBTQ
individuals. Catechism of the Catholic Church (1997)
paragraph 2358 [https://perma.cc/W8R5-KV3S].
II.

There is Extensive Theological Support
Within the Church for the Welcoming
Treatment, Not the Rejecting Treatment, of
LGBTQ People
A. To reject LGBTQ people including
refusal to recognize their civil marriages
is unjustifiable discrimination under
Church Teachings

Lisa Fullam, Th.D., a Professor of Moral Theology
at the University of Santa Clara Jesuit School of
Theology, emphasizes that in refusing to recognize the
civil marriage of “... same-sex couples, we discriminate
against them precisely because they are homosexuals,
a form of unjustifiable discrimination that is contrary
to Catholic Social Teaching.” Lisa Fullam, Civil SameSex Marriage: A Catholic Affirmation, New Ways
Ministry (2019) [https://perma.cc/JV7D-XSBP].
Dr. Fullam also emphasizes, “No aspect of
magisterial sexual teaching [of the Roman Catholic
Church] has been infallibly defined [Emphasis
added]… Historically, the development of doctrine is
often driven by the diligent work of scholars…” Id. One
central concern of this ongoing development is the
extent to which traditional Church teaching about

14
LGBTQ individuals should now be transformed to align
with recent advances in scientific understanding
concerning human sexuality. She concludes that
Church leaders seem to regard “... Magisterial
teaching on sexuality as irreformable, while in fact
there has been considerable development in
authoritative sexual teaching over the centuries. To
assert that sexual teaching as we have it now, has
reached perfection is unjustified in light of the history
of development.” Id.
She also states that “civil law is fittingly expressed
in a doctrine of rights and duties [that] forbids
discrimination before the law on religious grounds.
Fullam, Id . She notes that this teaching is supported
by Pope Paul VI’s Dignitatis humanae (Declaration on
Religious Freedom; published on December 7, 1965)
[https://perma.cc/5KZV-37YM] which decreed,
“…Government is to see to it that equality of citizens
before the law, which is itself an element of the
common good, is never violated whether openly or
covertly, for religious reasons. Nor is there to be
discrimination among citizens.” Id.
B. Catholic Social Teaching is irrefutable
that discrimination on the basis of
sexuality or gender is always unjust and
immoral.
The work of Todd A. Salzman and Michael G.
Lawler is concentrated in the fields of human sexuality
and theology including their published books,
“Introduction to Catholic Theological Ethics:
Foundations and Applications” (2019) and “The Sexual
Person-Toward A Renewed Catholic Anthropology”

15
(2008). Professor Salzman is the Amelia and Emil Graff
Professor of Catholic Theology at Creighton University;
Professor Lawler is the Emeritus Amelia and Emil
Graff Professor of Catholic Theology at Creighton
University. On June 25, 2020, they published an article
in National Catholic Reporter, Can U.S. bishops’
support of discrimination against LGBT be sustained.
[https://perma.cc/K39E-X5TH].
In this article, they state, “Catholic Social Teaching
is clear: discrimination on the basis of sexuality or
gender is always unjust and immoral.”; they continue,
“The Catechism of the Catholic Church clearly states
that, ‘the equality of men [and women] rests essentially
on their dignity as persons and the rights that flow
from it;”. Id. Continuing, they emphasize, “every form
of social or cultural discrimination in fundamental
personal rights on the grounds of sex, race, color, social
conditions, language, or religion must be curbed and
eradicated as incompatible with God’s design.’” Id.
Basing their conclusions on their own research, and
also on the work of Jacques Balthazart (The Biology of
Homosexuality, 2012); Simon LeVay (Gay, Straight
and the Reasons, 2010); and Fr. James Allison (The
Fulcrum of Discovery or How the ‘Gay Thing’ Is Good
News for the Catholic Church’, unpublished essay,
online [https://perma.cc/KNP3-6KJN]).
Professors Salzman and Lawler conclude,
“Homosexuality in humans is to a very large extent, if
not exclusively, determined by biological factors acting
prenatally or soon after birth, and that the social or
educational environment plays at best a subsidiary in
this determination…” supra. [https://perma.cc/K39E-

16
X5TH]. They continue, “Catholic teaching that
homosexual acts are ‘intrinsically disordered’ and ‘can
never be morally justified’ are assertions without
theological or ethical proof.” Salzman and Lawler, Id.
Salzman and Lawler also challenged the recent
statements of the United States Conference of Catholic
Bishops which criticized this Supreme Court’s decision
in Bostock v. Clayton County, 590 U.S.___.(2020)
Specifically, they dispute the Bishops’ contention that
this Court’s decision in Bostock, Id. would “promote
immoral sexual behavior that fundamentally threatens
the family and common good”; Salzman and Lawler
conclude that these assertions are “without theological
or ethical proof”. Id. Salzman and Lawler continue
that, “The United States bishops’ opposition to
legislation prohibiting discrimination based upon
gender, sexual orientation and gender identity is both
scientifically and theologically flawed…”; further, such
discrimination “... violates human dignity and the truth
of God’s unconditional love for all people. It is driving
young people away from the church, doing serious
economic, psychological, emotional and spiritual
damage to LGBT persons, and legitimating hate speech
and violence against them.” Id.
On the issues of by LGBTQ individuals and samesex couples, which the Bishops continue to argue is not
as successful as that of heterosexual parents,
Professors Salzman and Lawler reject such claims and
refer to a study of the American Psychological
Association which determined from more than 30 years
of research: “… that lesbian and gay parents are as
likely as heterosexual parents to provide supportive

17
and healthy environments for their children...and the
children of lesbian and gay parents are as likely as
those of heterosexual parents to flourish.” Salzman and
Lawler, “Can U.S. Bishops…”, Id. On the basis of this
important study,
the American Psychological
Association and the American Association of Pediatrics
both oppose discrimination against same-sex couples.
Id.
C. The Pope’s message that LGBTQ people
are to be welcomed with dignity and
respect is being disseminated by, among
many others, Fr. James Martin, S.J.
Fr. James Martin, S.J., an internationally
recognized American Jesuit priest, advocates within
the Church for LGBTQ individuals. In his role as a
Consultor to the Dicastery for Communication at the
Vatican, he helps to communicate the welcoming
message of Pope Francis. He is the editor-at-large of
America Magazine: The Jesuit Review of Faith and
Culture and author of the very relevant book, Building
A Bridge: How the Catholic Church and the LGBT
Community Can Enter into a Relationship of Respect,
Compassion and Sensitivity (2017; Revised and
expanded, 2018) which received formal ecclesiastical
approval from his Jesuit superiors—the Imprimi
Potest.
In Building A Bridge, supra, Fr. Martin describes
how LGBTQ individuals should be welcomed and
accepted in the Church and must never be judged
exclusively by their sexuality. Fr. Martin emphasizes
how the Catechism calls upon Catholics to treat
homosexuals with “respect, compassion, and

18
sensitivity” Catechism of the Catholic Church, No. 2358
[https://perma.cc/P89DKZCD].
A number of prominent Church leaders have
endorsed Martin’s book including: Cardinal Kevin
Farrell, Prefect of the Vatican’s Dicastery for Laity,
Family and Life; Cardinal Joseph Tobin, Archbishop of
Newark; Bishop W. McElroy of San Diego; Fr. James
Alison; and Sr. Jeannine Gramick, SL. (Building A
Bridge, 2017, (front-piece).
The Pope—all Popes—teach by example. On
October 1, 2019, Fr. James Martin was received by
Pope Francis in a private audience to discuss Fr.
Martin’s ministry to LGBTQ people. Thomas Reese,
Pope meets with Jesuit priest James Martin to discuss
LGBTQ ministry. National Catholic Reporter, October
1, 2019 [https://perma.cc/2WJS-6N3N]. The meeting,
according to Fr. Martin, proceeded in a very positive
manner. Id. Pope Francis met with Fr. Martin in the
papal library of the Apostolic Palace (a location usually
reserved for meetings with heads of state and
diplomats); the Vatican Press Office later released
photos of the meeting—both clear signs of Papal
approval. Id. Fr. Martin in his book communicates “the
need to welcome” as supported and recognized by the
Pope and Church authority; the “unwelcoming
approach” pursued by CSS should be regarded is
nonconforming when benchmarked against the
Church’s own teaching. Id.

19
D. The debate about treatment of LGBTQ
people as illustrated by differences
expressed by Archbishop Charles
Chaput, O.F.M. Cap. and Fr. James
Martin, S.J.
Within the Church there are many members of the
clergy and the laity who may be described as
“traditionalists.” These individuals oppose any
consideration of change in approaches to LGBTQ
individuals. Charles J. Chaput, O.F.M. Cap., who was
in office as Archbishop of the Archdiocese of
Philadelphia when the events involving CSS occurred,
may be described as a traditionalist. Some
traditionalists are viewed as undermining Pope Francis
in his efforts to secure change within the Church
including recognition and welcoming of LGBTQ people.
(Gerard O’Connell, Cardinal Angelo Scola calls out
Pope Francis critics: ‘The Pope is the Pope’”, America
Magazine (July 21, 2020).8
These on-going controversies within the Church
about disputed Catholic teachings, including Pope
Francis’ exhortations to welcome LGBTQ individuals,
are identified by Petitioners in their brief as a matter
of “interpretation.” Petitioner’s brief, p.11. Petitioners’
use of the term “interpretation” minimizes the
existence of one of the most active and important
religious controversies inside the Church —whether
the contemporary welcoming teachings of the Pope or
the traditional rejecting teachings of a local archbishop
(one of several thousand) are to control in this matter.
8

https://www.americamagazine.org/faith/2020/07/21/cardinalscola-calls-out-pope-francis-critics-pope-pope

20
Criticism former Archbishop Chaput directed towards
a speech Fr. Martin gave in Philadelphia emphasizes all
of this. On September 19, 2019, Archbishop Chaput
published an article critical of Martin’s speech on the
Archdiocese website. “Archbishop Charles J. Chaput,
Father James Martin and Catholic belief; CatholicPhilly.9
He noted, “Due to the confusion caused by his statements
and activities regarding same-sex related (LGBT) issues
... I find it necessary to emphasize that Fr. Martin does
not speak with authority on behalf of the Church, and
to caution the faithful about some of his claims …” Id.
Fr. Martin does speak with authority—the
authority of the Pope and the Vatican; he delivers a
much different message from that of Archbishop
Chaput. This exemplifies the existence of the debates
and differences in interpretation or approach which the
amici describe. Fr. Martin, at the invitation of the
Vatican, originally gave the very same speech which
the Archbishop had criticized at the Vatican-sponsored
“World Meeting of Families” on August 23, 2018 in
Dublin. The title of that speech, “Showing Welcome
and Respect in Our Parishes for LGBT People and
Their Families,” was actually suggested by the Vatican
(hierarchically greater in authority than an
archbishop). The entire speech was approved in
advance by the Vatican. An article containing the text
this speech by Fr. Martin, with a video of the speech
embedded in the article as a link, is found at James
Martin, Father James Martin: How Parishes Can

9

[https://perma.cc/Z38Q-CFH8]

21
Welcome L.G.B.T.Q. Catholics, America Magazine,
August 23, 2018.10
Fr. Martin gave his “progressive” speech in Dublin
on August 23, 2018. Id. Archbishop Chaput’s rebuttal
to Fr. Martin was published more than a year later on
September 19, 2019. The Dublin speech and the
Philadelphia speech are identical–approved in advance
by the Vatican. Roman Catholics recognize the Vatican
as the ultimate hierarchical Church authority
especially when a message intended for worldwide
dissemination is reviewed beforehand by it. Some of the
most relevant questions for local parishes which Fr.
Martin addressed to his audience in this speech
include, “Does the person answering the phone know
what to say to a lesbian couple who wants to have their
child baptized? At funerals, are the gay adult children
of the deceased treated with the same respect as other
children? What about the teacher in a parish school
who has two fathers coming to a parent-teacher
conference? “ In all of these instances, Fr. Martin
communicates that the response must be a most
welcoming one. James Martin How Parishes Can
Welcome L.G.B.T. Catholics, America Magazine,
August 23, 2018.11
So, in a presentation approved by the Vatican, the
L.G.B.T.Q couple is to be welcomed for the Baptism of
10

https://www.americamagazine.org/faith/2018/08/23/father-jamesmartin-how-parishes-can-welcome-lgbt-catholics; Also, on YouTube
at https://youtu.be/U3TvffTC1wQ

11

https://www.americamagazine.org/faith/2018/08/23/father-jamesmartin-how-parishes-can-welcome-lgbt-catholics; also, YouTube at
https://youtu.be/U3TvffTC1wQ

22
their child. In the traditional approach of the
Petitioner CSS, L.G.B.T.Q. couples cannot even secure
evaluations in a non-sacramental, civil process. These
differences are most telling when the weight of
hierarchy is acknowledged; unless one intends to ignore
the pre-eminent status of the Pope and the Vatican, the
weight of the hierarchical authority rests with the
welcoming inclusive approach.
E. A majority of Catholics in the United
States support equality for LGBTQ
persons.
At the Church of the Presentation in Upper Saddle
River, N. J., a Church attended by several of the amici,
712 practicing Roman Catholic parishioners
participated in a survey which was conducted by its
“Task Force on Healing and Reform” (previously
designated as the “Sexual Abuse Crisis Task Force”)
[https://perma.cc/52QP-Y6VF] [results used with
permission of the Church of the Presentation] A copy of
question No. 8 (out of a total of 15 questions) with 712
responses is attached hereto as Appendix B. The
results are noteworthy on the issue of approaches of
the laity within the Church to LGBTQ persons. Id.
Question No. 8 was: “The Church must reformulate its
teachings regarding homosexuality”; 80% of those who
responded agreed (55.35% “strongly agreed” and
24.65% “agreed”). Only 8.17% of those who responded
disagreed; an additional 11.83% were neutral—”neither
agreeing nor disagreeing.” Id.
The amici present this survey as a strong
indication that there is very significant support within
the Church for reformulation of its teachings regarding

23
homosexuality; the laity, not just the amici herein,
must be heard especially by those American Church
leaders who would resist Pope Francis on this matter.
Recognizing that religion is a creative process, not a
static one, this Court should accordingly exercise great
caution in any consideration of possible acceptance of
the traditional, unwelcoming approaches which
Respondents would have it rely upon.
According to a May 14, 2019 report of the Pew
Research Center on Religion, with regard to attitudes
on marriage by religious affiliation, 61% of Roman
Catholics now support same-sex marriage while 66% of
mainline Protestants also do. [https://perma.cc/Y7YGXDD3]. Gallup also conducts annual polls; first, as of
June 1, 2020 it reported that a record 67% of
Americans polled now support same-sex marriages.
Justin McCarthy, U.S. Support for Same-Sex
Marriages at Record High. June 1, 2020
[https://perma.cc/RKA8-JLWK]. Gallup also conducts
polls gauging the extent of support for adoption of
children by same-sex couples; on June 6, 2019, it
reported that 75.% of those polled answered in the
affirmative on the question whether gay and lesbian
individuals should be allowed to adopt children. Justin
McCarthy Gallup First Reported on Gay Issues in ‘77.
What has changed. June 6, 2019,
[https://perma.cc/QZ33-HZ5H].

24
F. There are two recognized approaches in
the Church about LGBTQ people and by
ruling for Petitioners this Court would
be choosing between the two.
The positions espoused by those Petitioners and
those who support Petitioners’ case are often described
as “traditional,” “exclusive,” or “non-affirming.”12 The
positions described by Fr. Martin and others,
unrepresented in this matter, are often described as
“progressive,” “inclusive,” or “affirming.” The amici are
not asking this Court to determine which position is
correct or incorrect, right or wrong, theologically,
ethically, or otherwise acceptable—the non-affirming
versus the affirming. That determination would involve
conduct by this Court which would contravene the
Establishment Clause—especially if this Court tried to
12

Reference is appropriate to an episode in Adventures of
Huckleberry Finn, Chapter XXXVI, in which Huckleberry Finn
and Tom Sawyer are attempting to rescue their friend, the
enslaved Jim, who is locked in a cabin. To do this, they decide to
dig under the sill. But, apparently according to tradition and as
aspiring pirates, all digging must be accomplished by hand with
“case-knives”. Realizing that they must rush, Tom says to Huck,
“Gimme a case-knife”. Huck complies but Tom throws that knife
to the ground, saying with much emphasis, “Gimme a case-knife”.
Huck gets the message; reaching for some old tools lying nearby,
he “got a pick-ax and gave it to him and he took it and went to
work…”. In this instant matter, the traditional clerical leadership
supporting the claim of Petitioner CSS is asking this Court for a
“case-knife”– a religious liberty exemption; in actuality, the “caseknife” they now seek is this Court’s approval of discrimination
targeted against LGBTQ people which is contrary to both our civil
law and Church doctrine. Mark Twain, Mississippi Writings,
Adventures of Huckleberry, pp. 865,866, Library of America
(1982).

25
attempt to identify what is hierarchically correct given
the message of the Pope and the actions of the Vatican
vis a vis the message of some local archbishops or
bishops. The amici request that this Court recognize
the active, ongoing, current debate which constitutes a
real religious dispute within the Roman Catholic
Church about the extent to which gay people are to be
welcomed. These measures have not been adequately
described in the record. In all events, for First
Amendment Establishment reasons, this Court must
affirm the decision of the Third Circuit and remain far
from this religious arena.
III.

Argument on the Law
A. In Wisconsin v. Yoder, Chief Justice
Burger Warned of Establishment
Concerns in Religious Liberty Claims as
Now Present in the Instant Case.

The amici challenge Petitioners on three specific
grounds. First, it is unjust and unlawful under our civil
laws to permit Petitioners to discriminate against
LGBTQ individuals, including those who wish to
participate in a governmental foster care or adoption
program. Second, Petitioners are not entitled to a
“religious exemption” based upon claimed teachings of
the Church involving rejection of LGBTQ individuals
which contradict the message of the Pope and are now
embroiled in controversy and under challenge. Third,
the differences within the Church as to the welcoming
or rejection of LGBTQ individuals have polarized to
such an extent that if this Court were to rule for
Petitioners and rejection of LGBTQ persons, that
decision would constitute an Establishment of religion.

26
In Wisconsin v. Yoder, 406 U.S. 205, 220 (1972),
Chief Justice Burger stated, “The Court must not
ignore the danger that an exception (221) from a
general obligation of citizenship on religious grounds
may run afoul of the Establishment Clause...” He
encouraged the need for a sensible and realistic
application of the Religion Clauses. In Yoder, he cited
Walz v. Tax Commission, 397 U.S. 664, 672 (1970), “we
have been able to chart a course that preserved the
autonomy and freedom of religious bodies while
avoiding any semblance of established religion. This is
a ‘tight rope’ and one we have successfully traversed.”
Walz v. Tax Commission, at 672.
This Court now actually stands on a similar
tightrope to that described by Justice Burger in his
Yoder, supra. Tightropes should be terrifying to those
who are not accomplished in such exercise; this Court
is accomplished but only in secular and civil
matters—not so with theological as the instant case
presents. If it should decide for Petitioners, it would be
supporting those within the Church who would reject
LGBTQ individuals--for the non-affirming religious
traditionalists. It will have failed to successfully
traverse a religious issues tightrope, fundamentally an
Establishment Clause challenge. Justice Burger
correctly warned about this. This Court should not fall
into the abyss of an Establishment violation by
deciding in favor of one religious’ faction, quite contrary
to and in effect ignoring another viable faction, within
a particular religion.
Even with Yoder, Id., there were real expressions of
concern: “Yoder struck many observers as troubling

27
because it did not seriously entertain the possibility
that the interests of parents and children may diverge.”
Justin Driver, The School House Gate—Public
Education; The Supreme Court, and the Battle for the
American Mind pp.405-410 (2018). Professor Driver,
who is the Harry N. Wyatt Professor of Law at the
University of Chicago Law School, refers to a dissent in
Yoder wherein Justice William O. Douglas, supra at
244 commented, “…I think the children are entitled to
be heard; the education of the child is a matter on
which the child will often have decided views. He may
want to be a pianist or an astronaut or oceanographer.
To do so he will have to break from Amish tradition...”
Wisconsin v. Yoder, Id. at 244, 245. In religion cases,
there is almost always a substantial likelihood of the
existence of unpresented, impacted interests such as
the Amish children in Yoder and the interests of those
Catholics, including amici, who believe under Church
doctrine that LGBTQ people should be welcomed, not
rejected, in the matter now before this Court.
However, decisions about religion and its doctrines
are difficult, if not impossible, when required of either
an administrative panel or a court charged as a neutral
decision maker with providing “full and fair
consideration” of any religious liberty claim.
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Commission, 138 S. Ct. 1719 (2018). That task becomes
especially difficult, perhaps to an extraordinary degree,
if there are sincere religious differences, as in the
instant matter, between members of a particular
religion who believe that its tenets are being either
mis-described or mis-applied by those seeking the
exemption. Such a situation could be tragic, if not

28
catastrophic, if a civil court was to rule, on a matter in
considerable religious controversy, if that decision
would arrive as a surprise to many believers in the
same church who do not accede to the particular
interpretation which the Court supports. All of this is
avoidable if the judicial concerns and restraints, which
Wisconsin v. Yoder, supra, identifies, and which
Employment Division, Department of Human Res. v.
Smith, 494 U.S. 872 (1990) reinforces, remain in place.
Petitioners also claim that Masterpiece Cake Ltd. v
Colorado Civil Rights Comm., 138 S. Ct. 1719, 1727
(2018) emphasized the importance of allowing churches
to maintain their own marriage solemnization
practices.” No one would quarrel with that statement
when applied to sacramental, liturgical or theological
services of a sacramental nature. But, is that really
what Masterpiece held? Or, did it hold that there were
deficiencies in a required administrative hearing held
to identify what the baker’s religious beliefs actually
were and were those beliefs sincerely held or were they
pretextual. Masterpiece, Id.
Such an analysis must be undertaken whenever
“religious exemptions” are claimed to confirm whether
the relied upon religious belief is “sincerely held” and
“not pretextual”. Also, it should be required to avoid
the possible grant of what in effect could be a
governmental imprimatur on a faction within a
particular religion. However, all of this is essential
unless religious exemptions, which many of the
adherents of the particular religion would oppose, are
to be recognized on a “first in time filed” prevails basis
as if mechanically calculating the filing of deeds or

29
mortgages in order of time in a county land records
office. Whose “sincerely held religious beliefs” are to be
recognized when active religious controversy affecting
the religious exemption requested exists within the
particular religion?
When ink was the medium of the day, a summary or
“first in time filed” approach would be called a “rubber
stamp”—or to use Justice Scalia’s fitting terminology
—a process of “presumptive” validation. Smith, Id. at
888 Once again, in Masterpiece, supra, the baker, who
was seeking government endorsement of his “religious
exemption”, apparently as an unwelcoming Christian:
but, in that case, who spoke for those Christians, a
great many, who are welcoming and object on religious
grounds, public policy and constitutional and statutory
law to discrimination and rejection directed to LGBTQ
people. Even more so, are we to have a race to our
courthouses by either side when there are clear
religious differences or controversies within a specific
religion so that the first to file, be recognized and
prevails in those courts, earn bragging rights or
imprimaturs as to the correctness of their “beliefs”?
However, amici emphasize that this Court
determined in Watson v. Jones, 80 U.S. (13 Wall.) 679,
728 (1871), “In this country the full and free right to
entertain any religious belief, to practice any religious
principal, and to teach any religious doctrine…which
does not infringe personal rights [emphasis added]
is conceded to all”. The claim of Petitioners, which
amici
argues disregards and violates Church
teachings, would infringe personal rights of LGBTQ
people. Watson v. Jones, Id. also stands for much more,

30
“[W]henever…questions of discipline, or of faith, or
ecclesiastical…have been decided by the highest of
these church judicatories…, the legal tribunals must
accept such decisions as final and binding on them,
[emphasis added] in their application of the case before
them.” Watson v. Jones, 80 U.S. at 727.
In Smith, supra, 887, Justice Scalia emphasized
that, “The government may not …lend its power to one
side or the other in controversies over religious
authority or dogma, see Presbyterian Church v. Mary
Elizabeth Mem’l Hull Presbyterian Church 393 U.S.
440 (1969); Kedroff v. St. Nicholas Cathedral of
Russian Orthodox Church of North America, 344 U.S.
94 (1952); Serbian Eastern Orthodox Diocese for United
States and Canada v. Milivojevich, 426 U.S. 696 at 709,
724-725; Here, the ultimate hierarchal authority–Pope
Francis–has spoken to such a degree that this Court
should not rule for petitioners’ religious liberty claim
which contradicts the Pope.
Justice Brennan cautioned, “It is not only the nonbeliever who fears the injection of sectarian doctrines
and controversies into the civil polity, but in as high
degree it is the devout believer who fears the
secularization of a creed which becomes too deeply
involved with and dependent on government.” School
District of Abington Township v. Schempp, 374 U.S.
203, 205 (1963).

31
B. Employment Division v. Smith, as relied
upon by the Third Circuit, is an
essential standard for review of claims
based on religion
This Court should determine that the decision not
to recognize Petitioner’s claim for a religious liberty
exemption by Third Circuit below, which primarily
relied upon Employment Division, Department of
Human Res. v. Smith, 494 U.S. 872 (1990) should be
affirmed. Further, Smith should remain in place and
unaltered. The judicial regimen which Smith
established provides the best possible way to gauge
“religious liberty” claims. It acknowledges the
complexities and dynamics, as in the instant matter,
which ordinarily accompany religion. In Smith, Id.,
complex religious challenges were anticipated by
Justice Scalia: “if ‘compelling interest’ really means
what it says … many laws will not meet the test. Any
society courting such a test would be courting anarchy;
but that danger increases in direct proportion to the
society’s diversity of religious beliefs and its
determination made up of people of almost every
conceivable religious preference.” Smith, Id. at 888.
Justice Scalia continued, “...precisely because we
value and protect that religious divergence, we cannot
afford the luxury of deeming presumptively invalid, as
applied to the religious objector, every regulation of
conduct that does not protect an interest of the higher
order.” Smith, Id. at 888 How can Petitioners be
entitled to the grant by this Court of an exemption
which it seeks, on purported religious grounds, on the
deficient record now before this Court, otherwise than

32
by deeming the involved laws, ordinances, and local
government contractual provisions intended to prevent
discrimination against LGBTQ people to be
“presumptively invalid”. Again, by deeming Petitioners’
religious beliefs, as opposed to the religious beliefs
espoused by amici within the very same religion, to be
“presumptively valid”? None of this can be proper
under our First Amendment.
But if this Court were to do so, who does speak for
the Pope and the substantial body of Catholics who
believe that rejection is “unjust discrimination,
immoral and unsupportable under both Church and
Christian teachings? If Petitioners prevail in their
effort to eliminate or weaken Smith in this case, the
groundswell of religious liberty petitions which Justice
Scalia warned about, will soon arrive. Smith, Id. at
889.
This instant matter and a number of others pending
in lower federal courts show that the groundswell has
already arrived. As but one example, suit was
commenced on December 20, 2019 in the federal
district court of South Carolina, Greenville Division,
after a Protestant adoption agency refused to allow the
plaintiff to foster parent or adopt because she is a
member of the “wrong” Christian Church—plaintiff is
a Roman Catholic. Aimee Madonna v. U.S. Department
of Health and Human Services, 6:19-cv-03551-TMC.,
U.S. District Court, Greenville District, South Carolina
filed 12/20/2019. Our Courts and our administrative
agencies are simply not equipped to handle religious
liberty claims when such theological and ecclesiastical
differences present themselves. Further, Justice Scalia

33
warns about any approach where, “ … each conscience
is a law unto itself or in which judges weigh the social
importance of all laws against the centrality of
religious beliefs.” Smith, supra at 890. A decision for
Petitioner in the instant matter would do just that.
This Supreme Court should refrain from engaging
in any ruling that would support one side or the other
in the religious disputes and differences within in the
Roman Catholic Church concerning LGBTQ matters. It
should avoid the interpretation or weighing of any
religious tenets of the Church and affirm the Third
Circuit. It should dismiss the petition now under
consideration, limit religious exemptions to identifiable
ministerial functions—such as ecclesiastical, liturgical
or sacramental exercises, and apply the holding in
Employment Division v. Smith without modification as
the best possible judicial approach to preserve
constitutional integrity in the demanding arena of
religious liberty exemptions.
*****
This Supreme Court should not open the flap of the
tent and proceed out into the winter storm of religious
ethics, moral theology and philosophy in the disputed
subject area involving the extent to which LGBTQ
people are to be welcomed, or not welcomed, by the
Roman Catholic Church. No religious liberty exemption
should be granted to Petitioners. No Establishment by
this Court in favor one belief or in disregard another
contradictory belief within the same Church should
occur. To rule for the traditionalists now represented
by Petitioners would be a constitutionally prohibited
decision on religious matters. As Pope Francis stated in

34
response to the inquiry about an alleged LGBTQ
person, “….Who Am I To Judge?”
CONCLUSION
For the foregoing reasons, the decision below should
be affirmed.
Respectfully submitted,
James K. Riley
Counsel of Record
145 Franklin Avenue
Pearl River, NY 10965
(845) 653-1722
jrjrprny@gmail.com
Counsel for Amici Curiae
August 14, 2020

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A List of Amici Curiae . . . . . . . . . . . App. 1
Appendix B Church of the Presentation, Slide/
Question No. 8, Survey of the
Task Force on Healing and Reform
(2018). . . . . . . . . . . . . . . . . . . . . . . App. 2

App. 1

APPENDIX A
AMICI CURIAE
Rosemary Amabile

Barbara Mills

Jeanette Baron

Dorothy Mills

Elizabeth Begley

Hugh J. Mills

Ellen M. Brickwedde

Mary Jo Monahan

Joseph J. Coyne

Sarah Monahan

Stephanie S. Coyne

Cheryl Morrissey

Gerard C. Duer

James K. Riley

Denise Finnegan Schorn Joan Riley
Catherine Furlani

Marsha Simchera

Deborah Kair

Patricia A. Swanton

Jack Kakolewski

Jennifer Talley

Patricia A. Krasnausky

Gloria Blanchfield Thomas

Shauna Mc Roberts

Mary T. Yelenick

Daniel P. Mecca

App. 2

APPENDIX B

